<html>
<title> - PREVENTING SEXUAL HARASSMENT IN THE CONGRESSIONAL WORKPLACE: EXAMINING REFORMS TO THE CONGRESSIONAL ACCOUNTABILITY ACT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




                  PREVENTING SEXUAL HARASSMENT IN THE 
    CONGRESSIONAL WORKPLACE: EXAMINING REFORMS TO THE CONGRESSIONAL 
                           ACCOUNTABILITY ACT

=======================================================================

                                HEARING

                               BEFORE THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 7, 2017

                               __________

      Printed for the use of the Committee on House Administration


                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html
   
                                   ________
                       
                       U.S. GOVERNMENT PUBLISHING OFFICE
                
31-448                         WASHINGTON: 2018
     
   
   
   
   
                   Committee on House Administration

                  GREGG HARPER, Mississippi, Chairman
RODNEY DAVIS, Illinois, Vice         ROBERT A. BRADY, Pennsylvania,
    Chairman                           Ranking Member
BARBARA COMSTOCK, Virginia           ZOE LOFGREN, California
MARK WALKER, North Carolina          JAMIE RASKIN, Maryland
ADRIAN SMITH, Nebraska
BARRY LOUDERMILK, Georgia





 
PREVENTING SEXUAL HARASSMENT IN THE CONGRESSIONAL WORKPLACE: EXAMINING 
            REFORMS TO THE CONGRESSIONAL ACCOUNTABILITY ACT

                              ----------                              


                       THURSDAY, DECEMBER 7, 2017

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:01 a.m., in Room 
1310, Longworth House Office Building, Hon. Gregg Harper 
[Chairman of the Committee] presiding.
    Present: Representatives Harper, Davis, Comstock, Walker, 
Smith, Loudermilk, Brady, Lofgren, and Raskin.
    Also Present: Representatives Byrne, Brooks, and Speier.
    Staff Present: Sean Moran, Staff Director; Kim Betz, Deputy 
Staff Director/Policy and Oversight; Katie Patru, Deputy Staff 
Director; Cole Felder, Deputy General Counsel; Dan Jarrell, 
Legislative Clerk; Erin McCracken, Communications Director; 
Jamie Fleet, Minority Staff Director; Khalil Abboud, Minority 
Deputy Staff Director; Eddie Flaherty, Minority Chief Clerk; 
and Teri Morgan, Minority Deputy General Counsel.
    The Chairman. I now call to order the Committee on House 
Administration for purposes of today's hearing titled 
``Preventing Sexual Harassment in the Congressional Workplace: 
Examining Reforms to the Congressional Accountability Act.''
    The hearing record will remain open for 5 legislative days 
so members may submit any materials they wish to be included.
    A quorum is present, so we may proceed.
    I ask for unanimous consent that the Committee on Ethics 
Chairwoman Susan Brooks, Representative Jackie Speier, and 
Representative Bradley Byrne be afforded the opportunity to sit 
on the dais and question all of our witnesses today.
    Without objection, so ordered.
    At the outset, I would like to thank all of our witnesses 
for taking time out of what I know are very busy schedules to 
be here. We are much appreciative of that.
    First and foremost, let me reiterate, there is no place for 
sexual harassment in our society, especially in Congress, 
period. And one case of sexual harassment is one case too many.
    The Speaker of the House, Paul Ryan, tasked this Committee 
with heading up an extensive review on this issue, and we take 
that responsibility very seriously. As Members of Congress we 
must hold ourselves to a higher standard, a standard that 
demonstrates that we are worthy of the trust placed in us by 
the public, by our constituents, and by everyone in this 
country.
    Since our last hearing on November 14, additional accounts 
of sexual harassment have surfaced, and questions about the 
related settlements, both those authorized under the 
Congressional Accountability Act and outside that act, have 
been raised.
    These issues suggest not only that it is time, but it is 
appropriate for the Committee to review the policy goals of the 
Congressional Accountability Act, review the processes set out 
in the act, what we need to do to accomplish those policy 
goals, and evaluate the reforms needed to accomplish our 
collective goal, our bipartisan goal of zero tolerance.
    The Congressional Accountability Act has not been 
comprehensively reviewed since its enactment in 1995. The House 
took an important step forward last week in updating its 
policies and procedures by passing H. Res. 630. This resolution 
requires all House Members, officers, employees, including paid 
or unpaid interns, fellows and detailees to complete 
antiharassment and antidiscrimination training every year, as 
well as required all House offices to post a notice of employee 
rights and protections under the Congressional Accountability 
Act.
    The logical next step is to conduct a closer review of the 
Congressional Accountability Act to identify and evaluate what 
reforms are needed to ensure that we are protecting all 
congressional employees and workplaces.
    This hearing plays an important role in our Committee's 
extensive review, and the insight from our witnesses today will 
help inform us and help us make those policy choices.
    I want to take this opportunity, again, to thank our 
Speaker, Paul Ryan, for tasking our Committee with this 
important issue. I would also like to thank the Ranking Member, 
Bob Brady, for his commitment to this issue and having the 
House work in a bipartisan matter. Not only is it essential, it 
is what people expect.
    I look forward to hearing from each of our witnesses today. 
And with that, I will yield to the Ranking Member, Mr. Brady.
    Mr. Brady. Thank you, Mr. Chairman. And, Mr. Chairman, 
thank you for calling this hearing today and for the bipartisan 
manner by which you are approaching this issue.
    I also want to thank our witnesses, especially from the 
House Employment Counsel and the Office of Compliance. I 
appreciate the professional and nonpartisan way you approach 
your jobs, and I thank you for being here for a second time.
    The Congressional Accountability Act needs to be reformed. 
Since our last hearing, I have met with my colleagues and 
experts to better understand how we can improve this 
legislation. But most importantly, I have met with survivors of 
sexual harassment and assault.
    Mr. Chairman, we need to improve this process. But most 
importantly, we need to change the culture of this place, and 
that change must start with us. I hope this hearing helps us 
find some agreement on what we must do and help us better 
understand how we can reform the Congressional Accountability 
Act and give victims more confidence in the process and justice 
for the terrible experience that they have endured. We owe it 
to our employees and the American people to get this right.
    Mr. Chairman, I look forward to hearing from our witnesses. 
And I yield back the balance of my time.
    The Chairman. Thank you, Mr. Brady.
    Does any other member wish to be recognized for the 
purposes of an opening statement?
    The chair will now recognize the gentlelady from Virginia, 
Mrs. Comstock, for the purposes of an opening.
    Mrs. Comstock. Thank you, Mr. Chairman. And, again, I 
appreciate your leadership and Ranking Member Brady and the 
bipartisan, bicameral nature with which we are approaching 
this. And I do really believe that this is a watershed moment, 
and we need to take this opportunity to really fundamentally 
change how we address this in Congress, but also beyond.
    I thank my colleagues, Jackie Speier and Bradley Byrne, who 
are also joining us today, and I believe Susan Brooks, 
Chairwoman of the Ethics Committee, will be joining us, too.
    Thirty years ago, a young woman, Dorena Bertussi, was the 
first victim of sexual harassment who brought this forward, 
highlighted this issue against a Member of Congress and 
prevailed in her case. She is here today and I want to welcome 
here and once again thank her for her courage and her 
perseverance and how gracefully she handled a terribly 
difficult situation then.
    And I think it is important that now, even though it is far 
too long, and it shouldn't have been this long, that we do 
right by Dorena, but all the other people who are the people 
behind many of the headlines that we are seeing right now.
    We see often the offenders and certainly we want to know 
about sexual predators because we know sexual predators cross 
all party lines, their actions transcend any party labels.
    But we want to make sure that the victims are put first and 
foremost here, that we provide an advocate for them, whether it 
is a counsel or an ombudsman or some type of level playing 
field so the victims feel that we are protecting them, but 
also, more importantly, that we actually are, and that we make 
this a much more fair system, and also in that arena, how we 
address the nondisclosure agreements.
    We know the nondisclosure agreements are often preventing 
us from really knowing what is going on there, whether it is 
allowing people in the past here in Congress to be able to come 
forward without any fear of violating their nondisclosure 
agreements or how we address it in the public sector in 
general.
    I know there is legislation on that front too. So I think 
that is an important issue that we will need to address going 
forward.
    So thank you for the opportunity here to have these expert 
witnesses. And particularly the EEOC did a report last year, 
which I found very helpful in terms of they were talking about 
changing the culture and how we do that by permeating from the 
top down, from the bottom up, and that this really needs to be 
something where we are all engaged and involved.
    So thank you for the opportunity today to address this 
important issue.
    The Chairman. The gentlelady yields back.
    The Chair will now recognize the gentleman from Maryland, 
Mr. Raskin, for the purposes of an opening statement.
    Mr. Raskin. Mr. Chairman, thank you very much, Mr. Brady, 
thank you both for convening this very important hearing. And I 
want to thank our colleagues, Representative Speier, who has 
been in the forefront of the new changes that we are making, 
Congressman Byrne, and I think, also, Representative Brooks is 
coming or on the way.
    We are in the middle, Mr. Chairman, of a dramatic culture 
shift that is a tribute to the women's movement in the United 
States and also to the strong political democracy that it is 
part of here in our country.
    The public uproar over sexual harassment and sexual assault 
began in other places. It has rocketed across America. It came 
to the Halls of Congress and it has shaken this institution to 
the core.
    But I am pleased that this is a moment when we are 
restating our common bipartisan commitment to zero tolerance 
for sexual harassment into a safe, dignified, and equal 
workplace for everyone who comes to serve Congress. And we are 
doing this on a bipartisan basis. We are doing this on a 
comprehensive institutional basis.
    And I think that is the value that is being vindicated. 
This is a culture shift, much like ones Congress has gone 
through before. It used to be that lobbyists could give Members 
of Congress gifts and take them out for dinner and on fancy 
trips. And then there was a public uproar, a scandal. A rule 
has passed that banned it. And now it is unthinkable in this 
culture.
    It used to be that Members of Congress could pocket money 
from their campaign funds when they retired. And there was a 
scandal, public uproar, a rule against it, and it is 
unthinkable that anybody would do that today.
    We simply need to make sexual harassment something that is 
unthinkable, that just wouldn't be done within these Halls.
    So that is the value. I think everybody agrees with it. 
What we need is a process that implements that value. And of 
course, the devil is in the details. We need rules that will 
strongly deter sexual harassment, and we need a process in 
place that will swiftly and fairly punish sexual harassment, 
address the situation of victims, and get to the facts of cases 
that are controverted until we really can move to a time when 
sexual harassment is simply no more in this body.
    But I am glad that we are all part of this, we are going 
through this process, which is obviously painful for some 
members of this institution. But we have to leave sexual 
harassment behind the way we have left other sordid practices 
behind. And I am proud that the House Committee on 
Administration is playing a leadership role there and that we 
have so many colleagues who have come to join us in that 
project.
    I yield back to you, Mr. Chairman.
    The Chairman. The gentleman yields back.
    Anyone else have an opening statement?
    The Chair will now recognize Ms. Speier for the purposes of 
an opening statement.
    Ms. Speier. Mr. Chairman, thank you. And I, too, applaud 
your efforts and the bipartisan manner in which we have 
undertaken this issue. To Ranking Member Brady, to my colleague 
Mrs. Comstock, and to my colleague, Mr. Byrne.
    I think we are at a watershed moment, as you said, Mr. 
Chairman. You know, I have been working on this issue for a 
very long time, long before I came to Congress, as a matter of 
fact. In the mid-1990s, I was chair of the Women's Caucus in 
the State legislature, and we had a hearing on this issue. And 
we brought in Dr. Frances Conley, who was the first tenured 
neurosurgeon in the United States, and she was a professor at 
Stanford University. And she wrote a book called ``Walking Out 
on the Boys,'' and talked about the horrific environment in 
which she had to work as a professional in academia and as a 
medical professional.
    Of course, the Anita Hill hearings of 1992 was also a 
watershed issue and time when it was called the Year of the 
Woman. Well, it was 1 year, and that, frankly, was not enough.
    So what we have experienced over the last many decades is 
that there has been a return to the status quo, which is 
woefully unacceptable. We all recognize now that the Office of 
Compliance is mandated to do things that really hurt the 
victim. It is not that they do it by choice, it is because that 
is how it is mandated in the Congressional Accountability Act.
    H.R. 4396, which some of you have cosponsored, it now has 
over 110 cosponsors, it is Republicans and Democrats alike, it 
is the ME TOO Congress Act, which attempts to do the job of 
reforming the Office of Compliance. I don't think it goes far 
enough.
    And as we continue to talk about this issue, I think we 
need to recognize that probably the House Ethics Committee or 
the House Administration Committee is not the venue to which 
investigations should be sent when a complaint is filed about 
sexual harassment. There needs to be an independent 
investigation.
    Now, some have said: Well, how about the due process? And I 
would say, you know, there is due process here, and if we allow 
this independent agency or entity to do the review and make a 
recommendation to the House, that that would provide it.
    I do think that we have to recognize that behavior like 
this is normally not just one incident. Normally it is a 
pattern of behavior. And I think we have got to make sure that 
however we move forward, that we are victim-centric. We have to 
recognize that many of these victims, one of whom sat in my 
office crying, said to me going through this process was worse 
than the sexual harassment itself. Shame on us for not having 
addressed this sooner.
    But I want us to remember a young woman who came to this 
building, who worked in a number of offices. And it was in her 
second office where she filed a complaint for sexual 
harassment.
    She is no longer here. Her career was over. She was told 
her career would be over if she filed a complaint. And she 
hasn't worked since.
    We have got to make sure that the victims have the 
opportunity to stay here and work. They have a right to be able 
to work in these hallowed halls. Just because they were pawed 
by a colleague of ours or by a staff member is not a reason to 
then, if they file a complaint, to ostracize them.
    So as we talk about this, I hope that we redouble our 
efforts to make sure that we are protecting the victim and that 
we are making sure there is a soft landing for them so they can 
continue to pursue a career in public service.
    With that, I yield back.
    The Chairman. The gentlelady yields back.
    The Chair will now recognize the gentleman from North 
Carolina, Mr. Walker, for purposes of an opening statement.
    Mr. Walker. Thank you, Mr. Chairman. I appreciate the 
opportunity to be part of this Committee. And I think it says 
much that the Speaker has chosen your leadership and this 
Committee to handle a sensitive, but very important matter.
    I think about the bravery of all the victims that have 
stepped forward. I believe Congresswoman Speier is exactly 
right, there is a pattern to this behavior, certainly much of 
the time. But it usually takes a champion or someone to step 
forward to begin to break through some of that, who is willing 
to come out. And we actually have one of those leaders in this 
courageous movement, Gretchen Carlson, with us today. So I just 
want to acknowledge her bravery over the last couple years in 
being a leader in this movement.
    With that, I yield back, Mr. Chairman.
    The Chairman. The gentleman yields back.
    Any other person wishes to be recognized for the purpose of 
an opening statement?
    I would now like to introduce our witnesses.
    First, Victoria Lipnic was appointed as Acting Chair of the 
U.S. Equal Employment Opportunity Commission by President Trump 
on January the 25th, 2017. Before becoming the Acting Chair, 
Lipnic served as the Commissioner.
    Acting Chair Lipnic has extensive experience working with 
Federal labor and employment laws, holding positions such as 
U.S. Assistant Secretary of Labor for Employment Standards and 
Workforce Policy Counsel to the Committee on Education and the 
Workforce in the U.S. House of Representatives.
    Acting Chair Lipnic has also worked in the private sector 
as counsel to the firm Seyfarth Shaw LLP in its Washington, 
D.C., office.
    We welcome you, Ms. Lipnic.
    I would also like to introduce Susan Tsui Grundmann, 
Executive Director, Office of Compliance. Ms. Grundmann serves 
as Chief Operating Officer for the Office of Compliance, which 
was established to ensure the integrity of the Congressional 
Accountability Act of 1995 through programs of dispute 
resolution, education, and enforcement.
    Ms. Grundmann also works with the Office of Compliance 
board of directors to advise Congress on needed changes and 
amendments to the Congressional Accountability Act.
    Previously, Ms. Grundmann served as the Chairman of the 
U.S. Merit Systems Protection Board, enforcing Federal merit 
systems in the executive branch. She was confirmed to that 
position by the U.S. Senate in 2009.
    Ms. Grundmann has more than 20 years of professional 
experience in litigation and in advising and educating clients 
in labor and employment matters. She began her legal career as 
a law clerk to the judges of the 19th Judicial Circuit of 
Virginia.
    Welcome, Ms. Grundmann.
    Ms. Gloria Lett currently serves as Counsel to the Office 
of House Employment Counsel. Prior to serving as Counsel, Ms. 
Lett was a corporate attorney handling employment law issues 
and litigation for a large telecommunications company.
    She also served as an Assistant Corporation Counsel 
representing the District of Columbia in civil litigation, as a 
Special Assistant United States Attorney for the District of 
Columbia handling criminal prosecutions, and as an attorney for 
the Equal Employment Opportunity Commission.
    We welcome you, Ms. Lett.
    Dan Crowley has served as counsel to the firm K&L Gates in 
the firm's Washington D.C. office since 2008. Prior to joining 
K&L Gates, for 5 years Mr. Crowley was chief government affairs 
officer at the Investment Company Institute, the national 
association of the mutual fund industry.
    Previously, Mr. Crowley was vice president and managing 
director of the Office of Government Relations at NASDAQ Stock 
Market, Inc.
    Mr. Crowley's earlier employment includes Counsel to this 
Committee, the Committee on House Administration; also the 
Committee on House Oversight and the office of Speaker Newt 
Gingrich.
    We welcome you, Mr. Crowley.
    The Committee has received each of your written 
testimonies, and you will each now have 5 minutes to present a 
summary of that submission. Of course, most of you have 
testified before or seen that, so you have the clock in front 
of you that will help you keep up with your time. It will be 
green for 4 minutes, then it will turn yellow for the last 
minute, and red means that your time has expired.
    So, the Chair now recognizes our witnesses for the purpose 
of the opening statement, beginning with EEOC Acting Chair 
Lipnic. Thank all four of you for being here today.

     STATEMENTS OF VICTORIA A. LIPNIC, ACTING CHAIR, EQUAL 
   EMPLOYMENT OPPORTUNITY COMMISSION; SUSAN TSUI GRUNDMANN, 
EXECUTIVE DIRECTOR, OFFICE OF COMPLIANCE; GLORIA LETT, COUNSEL, 
 OFFICE OF HOUSE EMPLOYMENT COUNSEL; AND DANIEL F.C. CROWLEY, 
                     PARTNER, K&L GATES LLP

                STATEMENT OF VICTORIA A. LIPNIC

    Ms. Lipnic. Thank you so much.
    Chairman Harper, Ranking Member Brady, Members of the 
Committee, good morning and thank you for the opportunity to 
testify before you today about a subject that for weeks now has 
consumed headlines--sexual harassment--but certainly something 
that we at the EEOC have known to be far too common and which 
is only now being fully brought into the light.
    Since early October, when news of what was then simply 
known as the Weinstein scandal broke, the issue of sexual 
harassment has dominated the Nation's collective conversation. 
I am pleased to add my voice to that dialogue this morning.
    By way of introduction, as the chairman said, I am Vicky 
Lipnic. I am the Acting Chair of U.S. Equal Employment 
Opportunity Commission. I have served as a Commissioner of the 
EEOC for the last 7\1/2\ years, and President Trump designated 
me Acting Chair in January of this year.
    When I first joined the EEOC in 2010, I was struck by the 
number of harassment complaints the agency would see every 
year, the cases we would litigate, and the egregious behaviors 
we were addressing on behalf of victims of harassment.
    I had a conversation with our then-Chair, the late Jackie 
Berrien, who asked me to dig deeper into this issue. I spoke 
with every one of our district directors around the country and 
each of our regional attorneys. I was astonished but also 
deeply concerned that to a person I was told the same thing. 
The EEOC could, if it wanted to, have a docket consisting of 
nothing but harassment cases generally and sexual harassment 
cases specifically.
    This fact and a concern on a leadership level with the 
persistence and pervasiveness of the harassment claims we at 
the EEOC continue to see led to the establishment of the Select 
Task Force on the Study of Harassment in the Workplace, an 
outside group of experts that the EEOC convened following a 
public Commission meeting on workplace harassment in January 
2015. I was honored to co-chair the select task force alongside 
my Democratic colleague, Commissioner Chai Feldblum, who joins 
me in the hearing room today.
    The goal of creating the task force was to see if we could 
find new, innovative ways to address workplace harassment. We 
wanted to speak to and reinforce the work of prevention, not 
just address as an enforcement agency viability issues. The 
task force included members of both the management and 
plaintiff's bar, organized labor and trade associations, 
academics, including social scientists, compliance experts, and 
worker advocates.
    Our work concluded in June 2016 with the release of the 
final co-chair's report, almost 30 years to the day after the 
United States Supreme Court handed down its landmark decision, 
Meritor Savings Bank v. Vinson, in which it held for the first 
time that sexual harassment was a form of unlawful sex 
discrimination. We took away a number of top-line lessons 
learned through the study of the task force which I would take 
this opportunity to share.
    First, workplace harassment remains a persistent problem. 
Almost fully one-third of the approximately 90,000 charges 
received by the EEOC in fiscal year 2015 included an allegation 
of harassment. This includes charges of harassment on the basis 
of sex, race, disability, age, ethnicity, national origin, 
color, and religion.
    Second, workplace harassment, particularly sexual 
harassment, too often goes unreported. In fact, the least 
common response to harassment is for an employee to take some 
formal action, either to report the harassment internally or 
file a formal legal complaint. These employees may not report 
harassing behavior because they fear disbelief or inaction on 
their claim, blame, or social or professional retaliation.
    Third, an effective antiharassment effort must start at the 
top, and leadership and accountability are crucial. This cannot 
be overstated. Effective prevention efforts and workplace 
culture in which harassment is not tolerated must start at the 
highest level of management and an organization must have 
systems in place that hold employees accountable for this 
expectation.
    Finally, training must change. Much of the training done 
over the last 30 years has not worked as a prevention tool. It 
has been too focused on simply avoiding legal liability. We 
believe effective training can reduce workplace harassment, but 
even that cannot occur in a vacuum. It must be part of a 
holistic culture of nonharassment.
    And one size does not fit all. Training is most effective 
when tailored to the specific workplace and to different 
cohorts of employees.
    I understand that the Committee is contemplating changes to 
procedures designed to address workplace harassment in the 
legislative branch. I am happy to offer my thoughts on these 
proposals.
    In the interest of giving the Committee full background, my 
written testimony includes a lengthy discussion of the EEOC's 
procedures with respect to discrimination charges in both the 
private and Federal sectors.
    I would also commend to the Committee a set of promising 
practices for preventing and combating workplace harassment 
that the EEOC recently published on our website and which have 
been provided to Committee staff.
    In closing, I reiterate a key finding of our task force 
report: No system of training, monitoring, or reporting is 
likely to succeed in preventing harassment in the absence of 
genuine and public buy-in from the very top levels of an 
organization. We can and we must do better in all of our 
workplaces.
    I am pleased to answer any questions you may have. And as 
you said, Mr. Chairman, I am a former House staffer myself, so 
I am very familiar with working in the legislative branch. 
Thank you.
    [The statement of Ms. Lipnic follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you very much, Ms. Lipnic.
    The Chair will now recognize Ms. Grundmann for the purposes 
of her opening statement.
    You are recognized for 5 minutes.

               STATEMENT OF SUSAN TSUI GRUNDMANN

    Ms. Grundmann. Good morning, Mr. Chairman, Ranking Member 
Brady, and distinguished Members of this Committee and guests. 
On behalf of the Office of Compliance and our entire board of 
directors who join me here today, thank you for the opportunity 
to discuss our process and our concerns. We support and commend 
the efforts of this Committee and the Members of Congress for 
mandating workplace rights training for everyone and notice 
posting of those rights.
    Over the last 6 weeks we have seen a triple-digit-
percentage increase in the number of requests for in-person 
sexual harassment prevention training, a triple-digit-
percentage increase in the number of staffers enrolling in our 
online training module, twice as many visits to our online 
information about how to report sexual harassment, a 12 percent 
surge in the number of people subscribing to our social media 
platforms to receive updates on rights and protections. And I 
am happy to report that posters notifying employees of their 
rights are flying off our shelf, with reorders arriving late 
last week.
    These numbers tell us something. They mean that people are 
finally taking seriously a problem about which we have been 
sounding the alarm and have been proactively working to combat 
for years through our outreach and education program.
    However, mandatory training and posters are the floor, not 
the ceiling. And even though Chair Lipnic notes in her 
statement that the training in the last 30 years has not worked 
as a prevention tool, we have over 20 years of nonmandatory 
training, and here we are today.
    To reach the ceiling, not only should our process change, 
which we hope to discuss with you today, but as the chairman 
noted previously, publicly and forcefully, that the culture 
must change.
    And that cultural shift includes not just changes to our 
process, but a shift, a policy, a sexual harassment prevention 
policy that is currently not mandated under the law. That 
policy should include examples of what constitutes harassment, 
reporting procedures, standards of conduct, investigations at 
the appropriate level, and accountability.
    This discussion is proof that the members of this Committee 
in this watershed moment are focusing on an issue and 
validating our efforts to help build a strong culture of 
collegial respect.
    Let me note, media reports have portrayed us as opaque, 
Byzantine, shrouded in secrecy. And while we understand that 
these comments are directed at our process and not to us as 
individuals, these comments, nonetheless, sully the reputations 
of the 20 women and men who faithfully report to our office 
every day for work, including our occupational health and 
safety inspectors who examine the Capitol Grounds for hazards 
in public access; including our Deputy Executive Director, who 
trained 500 people in person over the last 6 weeks, and not all 
at once, but in ones and twos and tens; and including our only 
alternative dispute resolution counselor, who meets with 
employees at the beginning of the process to hear their 
stories, to advise them of their rights, and to comfort them in 
their distress.
    This is the process that Congress designed in 1995, a 
process that not only demands confidentiality, but strict 
confidentiality under the law, a system we have been tasked to 
administer, a process that Congress is now seeking to change, 
and a change that we welcome. And we hope that we will play an 
integral role.
    Many call this a moment of reckoning. We call it a moment 
of clarity, a clarity with respect to not what we do, but what 
we do under the Congressional Accountability Act.
    And as you deliberate, we ask that you bear in mind that 
this is a new day, not just for Congress, but throughout the 
legislative community. The changes that you propose and 
implement should and must apply beyond the halls of Congress 
and to our entire legislative community.
    During this time, our office stands ready and we will roll 
up our sleeves to assist you in the important work ahead.
    Thank you. I look forward to your questions.
    [The statement of Ms. Grundmann follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Ms. Grundmann, for your testimony. 
We look forward to asking you some questions soon.
    And we will now recognize Ms. Lett, Counsel for the Office 
of House Employment Counsel.
    Welcome, Ms. Lett.

                    STATEMENT OF GLORIA LETT

    Ms. Lett. Good morning. I want to thank the Committee on 
House Administration for inviting me for a second time to give 
testimony on the issue of preventing sexual harassment in the 
workplace. This testimony will supplement the written testimony 
that I submitted to the Committee earlier this week.
    I want to start by referring to an opinion piece I read on 
the cover of The Washington Post yesterday. It was entitled, 
``I Was Sexually Harassed. Question My Story.'' It was written 
by a woman named Karissa Fenwick.
    In the article, Ms. Fenwick tells her story of how she was 
sexually harassed. She goes on to say, ``Question my story 
because we need to examine our views about sexual harassment 
and misconduct.'' And, she said, ``By their nature, harassment 
complaints are characterized by gray areas and few witnesses. 
Victims and perpetrators are both flawed and sympathetic.''
    I thought it was important to read Ms. Fenwick's language 
because it captures, better than I probably could ever do, the 
challenges my office faces in our role as counsel for the 
employing offices on these issues. I read her words to mean 
that there has to be discussion and understanding around these 
issues. And when I say ``these issues,'' I mean allegations of 
discrimination.
    Sexual harassment is a form of unlawful discrimination, 
just like discrimination based on race, color, religion, 
national origin, age, and disability.
    I also read her words to mean that automatically 
characterizing any questions about the basis for sexual 
harassment allegations as victim blaming is counterproductive 
to rooting out sexual harassment, and I agree. Part of the role 
of my office is to question employees' claims of 
discrimination, including sexual harassment, and to do so is 
not victim blaming.
    On a personal note, like most women in this country, I have 
experienced sexual harassment in the workplace. It occurred 
during the early part of my employment, and my way of dealing 
with it was to leave a job that I liked.
    As a woman of color, I have also experienced race 
discrimination in the workplace. I worked for a private company 
where a White manager brought in a whip, which he prominently 
displayed in his office. And when questioned about it, he said 
he wanted to, quote, unquote, motivate the black employees.
    I believe these and other experiences have made me more 
sensitive to allegations of discrimination, not less. And I am 
probably a better lawyer for it because I understand the 
perspective of both the employee and the employer. I also try 
to lead by example as the head of my office.
    Posing difficult and challenging questions to employees, 
most often through their lawyers, is necessary to assess 
whether sexual harassment has occurred and correcting any 
inappropriate behavior.
    On the other side of that equation, when we are contacted 
about these issues, which unfortunately does not happen in all 
instances, and our clients tell us that they have done 
absolutely nothing wrong, we question that, too. We are not in 
the business of covering up unlawful behavior, but rather, we 
examine those gray areas that I mentioned earlier by conducting 
thorough investigations and then working with our clients to 
figure out how to address the concern both legally and 
practically.
    The congressional workplace is a microcosm and in many ways 
reflects workplaces across the America. Yes, sexual harassment 
occurs in the Congress, just like it does in other workplaces, 
and while the more serious allegations of sexual harassment, 
and borderline criminal behavior in some instances, tends to 
receive the most attention from the media, those types of 
allegations are not the norm on Capitol Hill, at least not in 
my office's collective experience. And, of course, I recognize 
that this kind of behavior does go unreported, so that may 
account for some of that.
    I want to try to answer the question of what has worked to 
address the concern about sexual harassment. I wish there was 
an easy answer, but there is not. Although it is not a panacea, 
I believe mandatory in-person training is very helpful. I have 
trained quite a few Members on this issue lately, and the 
response has been encouraging. I am hopeful that the training 
has meant that Members are talking directly with their 
employees and telling them that they should come forward with 
concerns without fear of retaliation.
    Employees won't always believe it, but this is still a 
positive step and it might help to change a perception held by 
some that these issues should not be reported.
    I will say that training does work effectively, but it 
doesn't work effectively when Members schedule it around or 
near votes.
    While I am convinced that no amount of training will fix 
truly egregious conduct, that will require other mechanisms of 
accountability, again, it is a step in the right direction.
    In closing, I want to thank the Committee again, and I 
welcome your questions.
    [The statement of Ms. Lett follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Ms. Lett.
    The Chair will now recognize Daniel Crowley for 5 minutes 
for the purposes of an opening.
    Thank you.

                STATEMENT OF DANIEL F.C. CROWLEY

    Mr. Crowley. Thank you. Chairman Harper, Ranking Member 
Brady, and Members of the Committee, thank you for the 
opportunity to testify today.
    My name is Dan Crowley. I am a partner at the law firm of 
K&L Gates. I note at the outset that my comments are my own and 
do not represent the views of the firm, my colleagues, or any 
firm clients.
    I had the privilege of serving as counsel to the Committee 
under Congressman Bill Thomas from March 1991 through early 
1998, a period that straddled the Republican revolution of 
1994. The Congressional Accountability Act was the first law 
enacted by the new Republican Congress in 1995.
    However, it is important to note that these are not 
fundamentally partisan issues. Rather, they are institutional 
in nature. In fact, the Committee's consideration of this 
legislation began under the previous Democratic majority.
    The basic principles that in the past guided the Committee 
in this area are, one, if a law is right for the private 
sector, it is right for Congress; two, Congress will write 
better laws when it has to live by the same laws it imposes on 
the private sector and executive branch; and three, the 
separation of powers embodied in the Constitution must be 
respected.
    The challenge faced by the Committee more than two decades 
ago was to reconcile these principles. At that time it was felt 
that the procedures established to provide a means for redress 
of grievances by employees must take into consideration that in 
the congressional context allegations can be career-ended, even 
if they subsequently prove to be untrue.
    The key constitutional provision at issue is the Speech or 
Debate Clause, which has repeatedly been interpreted by the 
U.S. Supreme Court as providing immunity for Members of 
Congress for not only speech or debate in either House, but 
also for other matters that the Constitution places within the 
jurisdiction of either House. Moreover, lower courts have ruled 
that Speech or Debate Clause immunity attaches to employment 
decisions by Members in certain circumstances.
    Against this constitutional backdrop, the Committee sought 
to establish a procedure to address violations of the Federal 
labor and employment laws by Members of Congress. Toward that 
end, the CAA provided for the creation of the Office of 
Compliance within the legislative branch and charged it with 
responsibility for promulgating implementing regulations, 
conducting studies, and, importantly, carrying out a program 
for educating employing authorities.
    Perhaps the most significant provisions in the CAA provide 
for a right of limited judicial review. However, the CAA was 
carefully crafted to avoid waiver of Speech or Debate Clause 
immunity. For example, Section 502 provides: ``It shall not be 
a violation of any employment discrimination provision to 
consider the party affiliation, domicile, or political 
compatibility with the employing office.'' In other words, such 
factors provide an affirmative defense to allegations of 
discrimination.
    As described in the Committee report: ``This provision and 
the exemptions listed therein recognize the special nature of 
employment in Congress by allowing Member offices, as well as 
Committee and leadership offices, to incorporate these three 
factors in employment decisions without prejudice to the 
legality of such decisions. ``The political compatibility 
exemption, while subject to broad interpretation, is intended 
to provide Members, Committee offices, and leadership offices 
with more flexibility than is available under the party 
affiliation and domicile exemptions.''
    The jurisprudence since enactment of the CAA makes clear 
that in employment cases in which Speech or Debate Clause 
immunity is asserted, it will be up to the courts to determine 
whether the privilege applies on a case-by-case basis. I note 
that notwithstanding the CAA, the Committee on Ethics has broad 
discretion to discipline Members for violating standards of 
official conduct, which may provide another meaningful avenue 
to explore as the Committee of considers solutions in this 
area.
    In conclusion, the Congressional Accountability Act of 1995 
is legislation that attempted to reconcile Member intent to 
subject themselves to the same laws they impose on others, 
consistent with the legitimate constitutional protections 
afforded by the Speech or Debate Clause.
    After more than two decades, it is important to review the 
CAA as well as the standards of official conduct to determine 
whether updates are necessary or appropriate. These are 
complicated issues that remain difficult to resolve.
    That said, the steps the Committee took more than two 
decades ago mean that you now have experts, including my fellow 
panelists, who are available to ensure that employing 
authorities are appropriately advised.
    Finally, I believe today, as I did then, that a commitment 
to taking prompt corrective action, up to and including 
termination, must be unequivocal.
    Thank you again for inviting me to testify today. I would 
be happy to respond to any questions you may have.
    [The statement of Mr. Crowley follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Crowley.
    We now have time for Committee Members to ask questions of 
the witnesses. Each member will be allotted 5 minutes to 
question a witness or witnesses. And I will now recognize 
myself for 5 minutes.
    And I will start, if I may, with you, Ms. Lipnic. I 
certainly appreciate you being here today and the work that you 
have done in this area of sexual harassment and antiharassment 
generally.
    I want to focus on your work for a moment as co-chair of 
the Select Task Force on the Study of Harassment in the 
Workplace. The EEOC has created a document entitled ``Promising 
Practices for Preventing Harassment'' identifying five core 
principles around which prudent practices are identified.
    Can you give us a little insight as to what practices would 
constitute an effective sexual harassment education program? 
And in your opinion, of that, what have you seen that works or 
doesn't work?
    Ms. Lipnic. Certainly. And I would tell you, Mr. Chairman, 
that the promising practices that are on our website are 
completely derived from our task force report, in the 
recommendations that we made in the task force report.
    So there are five core principles that we think are 
important for preventing harassment. And again, our task force 
was focused on prevention. At our very first meeting of our 
task force, we all agreed that we all know what is legally 
actionable harassment, but that is not working as a prevention 
tool. So we focused on five things.
    One is there has to be committed and engaged leadership, 
there has to be consistent and demonstrated accountability 
within an organization, there has to be strong and 
comprehensive harassment policies in place, trusted and 
accessible complaint procedures--and I would emphasize trusted 
procedures--and regular and interactive training that is 
tailored to the audience and to the organization.
    And as I said earlier, we were very critical of training, 
much of the training that has taken place and developed over 
the last 30 years, as a prevention tool. But we do not by any 
means reject training as a tool. We believe that training is 
absolutely necessary. And what Ms. Lett referred to, in 
particular, and she said in-person training, can make a big 
difference.
    So we have a number of recommendations about training. That 
it has to be customized to that particular workplace. The 
leadership of the organization has to show up for it and 
demonstrate that they are interested in it. It has to give 
examples to that particular workplace.
    And it is very important in training that individuals in 
the workplace focus on training, not even so much as what is 
harassment and what isn't, what are the procedures by which 
people can report, they know who to go to, they know what the 
consequences will be, what will happen. That is an important 
component of the training as well.
    The Chairman. So this is not going to be effective or as 
effective unless the person at the top----
    Ms. Lipnic. Absolutely.
    The Chairman [continuing]. Says this is going to be the way 
that it will be.
    Ms. Lipnic. Yes. And I have spoken on this in many places. 
And you will oftentimes here, in particular, outside counsel 
who are called in to do trainings at corporations, and the head 
of the business unit or the organization will show up for the 
very beginning of the training and say, ``I want you all to pay 
attention to this,'' and then leave.
    And so, you know, the leadership of the organization has to 
be as committed to it and as engaged in that training and send 
the message to the individuals who are receiving that training.
    The Chairman. Thank you very much.
    If I could now, Ms. Lett, I would like to ask you a couple 
of questions in the time that I have left.
    Would you describe OHEC's role in the counseling or 
mediation phases? And specifically, is OHEC retained by an 
employing office when counseling is initiated or when mediation 
begins, or does OHEC already have an attorney-client 
relationship with the House office prior to being notified of a 
CAA claim?
    Ms. Lett. I am going to give you a lawyerly response, and 
that is, it depends. In many instances we will know when a 
complaint is coming down the pike, and that is because the 
employing office has contacted us. There has been an employee 
who is dissatisfied with something that is going on in the 
workplace. They have attached it to a discriminatory motive. 
And we work with the office to try to address the situation.
    Sometimes an employee will have an employment performance 
issue. They have been put in a performance improvement plan. 
That hasn't worked out. The employee is terminated. And so we 
work with the office through that entire process and anticipate 
that when the employee loses his or her job that they are going 
to go to the Office of Compliance.
    We anticipate that. We don't know when someone has gone to 
the Office of Compliance initially for the counseling phase, 
because that is confidential unless the employee waives it.
    When mediation is requested, then we would be notified 
automatically. Again, we might know about that ahead of time 
that it is coming down the pike or for the first time when we 
get the notice of mediation. And of course, at the mediation 
phase we represent the employing office and attempt to resolve 
the matter at that point.
    The Chairman. Okay. Thank you very much. My time has 
expired.
    The Chair will now recognize Mr. Brady for 5 minutes.
    Mr. Brady. Thank you, Mr. Chairman.
    For Gloria Lett, of all the cases you handle, how much of 
your work is focused on sexual harassment?
    Ms. Lett. I anticipated that question. And I have a list 
here in terms of the number of cases and the categories in 
which they occur. We typically see mostly retaliation cases 
because when employees file claims they always put in a--well, 
always--they routinely will include a retaliation claim.
    Followed by retaliation is the Americans with Disabilities 
Act claims, race claims, Fair Labor Standards Act claims, age, 
Family and Medical Leave Act. And sex discrimination, gender 
discrimination cases come in at about the same rate. It is 
followed by sexual harassment claims, pregnancy claims, 
national origin, and military discrimination claims come at 
about the same rate. And then finally, claims based on color.
    Mr. Brady. Do you support eliminating the cooling-off 
period?
    Ms. Lett. I don't have a strong position on that one way or 
the other. My only caution about eliminating that 30-day period 
is that oftentimes we do settle cases during that period. So it 
would take away another opportunity to possibly resolve a case 
before a party goes directly into litigation.
    Mr. Brady. In your advocacy for employment offices, do you 
find that just your engagement, the engagement that you are 
engaged with, changes office behavior in the future?
    Ms. Lett. I think it is difficult for us to know to a 
certainty whether that is happening, but it has been reported 
back to us that when there has been an incident of some kind or 
some allegation of discrimination and an office speaks with us 
and tries to take appropriate action, we do action items, 
after-action items with the office.
    That might involve training for a particular individual. It 
might involve training for the entire staff. It might mean, in 
some instances, and not all House employing offices have 
written policies, so it might mean sitting with them, adopting 
those policies, rolling those policies out with the employees, 
and having conversations going forward.
    So I do think that there is a lot of positive that comes 
out of some of these situations.
    Mr. Brady. Thank you.
    And for Mr. Crowley, thank you for your service on the 
Committee, and I understand you worked with my former counsel, 
Charlie Howell.
    Mr. Crowley. Yes, sir.
    Mr. Brady. Who was a real gift to the members of this 
Committee in drafting the CAA.
    Why did Congress exclude the Library of Congress from some 
of these protections? Was that a mistake? And should we fix 
that and include now the Library of Congress?
    Mr. Crowley. You know, Congressman, I have to tell you that 
my recollection of these issues is now 22 years old, and so I 
don't remember every discussion we have.
    Mr. Brady. I can appreciate that, sir.
    Mr. Crowley. Yeah. I do recall a number of conversations 
involving the Library, including whether the police forces 
ought to be unified. I don't remember the specific discussion 
about the Library, although I think the answer might be, and I 
would defer to my colleagues, that they were already covered to 
a certain extent under Federal law, if I am not mistaken.
    Mr. Brady. Yes?
    Ms. Grundmann. Perhaps I can provide a little insight. The 
Library of Congress does have its internal personnel system, 
but that system is entirely internal. There is a hearing 
process in the Library of Congress, but the hearing officer's 
decision is merely a recommended decision. It must be forwarded 
to the Librarian, where she can either accept or reject that 
decision.
    Mr. Brady. Do you think we should include the Library of 
Congress in this ongoing hearing and discussion and maybe a 
bill?
    Mr. Grundmann. We do.
    Mr. Brady. Thank you.
    Ms. Lipnic, in the June 16 report you write about the risk 
factors in the workforce. Among them are many young workers in 
offices with significant power disparities. Congress is 
obviously a dramatic example of both of those risk factors. We 
passed a resolution focused on training recently, but no one 
believes that training is enough.
    And this hearing is about improving our laws, and that is 
important, but it is also not enough. We really need to change 
the culture.
    So based upon your experience, beyond providing training 
and changing laws, what other work can we do to change that 
culture?
    Ms. Lipnic. Thank you, Mr. Brady.
    One important point that I think the Committee should 
consider as you are looking particularly at revising the 
Congressional Accountability Act, and I would look to the 
testimony from Congresswoman Speier from your November hearing: 
There is a difference between what immediate action has to be 
taken when someone is concerned and complains that they are 
being sexually harassed versus what is all of the process that 
the Office of Compliance deals with and the House Employment 
Counsel when you are looking to is there liability.
    And so as Representative Speier said, you have to be 
concerned about what is happening to that person who has 
complained about it when she is still sitting there in that 
workplace.
    So I would urge you to sort of bifurcate your thinking on 
this and understand that that immediate action and that 
investigation that has to take place, which I think that the 
House Employment Counsel, I understand from the testimony, does 
a lot of that, you should consider how detailed can you be and 
how can you instruct your work environment as to how you want 
to deal with those immediate issues of harassment.
    Think of harassment claims different from other types of 
discrimination claims. So it is one thing to allege you did not 
get promoted to a particular job in an office based on your 
sex. That is very different than a harassment complaint and a 
harassment claim.
    And so the immediate investigation that has to take place, 
which may be referred to the House Employment Counsel's office, 
or maybe the Office of Compliance does that, I would urge you 
to think about what is that process and what is that type of 
corrective action that is taken immediately.
    That, again, is very different from all of the other 
process that is in place that determines is there liability 
here. So that is one thing that I would urge you to think 
about.
    And your focus on culture is very much what our select task 
force spent a great deal of time on. And there are a number of 
things that will influence a culture, again, including what is 
the message that is being sent from the top and is the 
leadership of the organization owning each individual 
workplace. And of course workplaces in Congress, you have a lot 
of--as you mentioned, the number of risk factors--you have a 
lot of young people, you have people working in very close 
quarters, you have people working very long hours.
    I think there is a recommendation maybe in one of the bills 
that you do a culture--a climate survey. Those are things that 
you can also consider and make sure that you are reviewing 
those things on a regular basis.
    But culture and the message that is sent from the 
leadership and the engagement within each individual office to 
address that are very important factors and can do the most to 
act as a prevention tool.
    Mr. Brady. Thank you. I thank all the witnesses for being 
here and for your testimony, very important and educated 
testimony.
    Mr. Chairman, I yield back the balance of my time.
    The Chairman. Thank you, Mr. Brady. The gentleman yields 
back.
    The Chair will now recognize the Vice Chairman of the 
Committee, Mr. Davis, for 5 minutes.
    Mr. Davis. Thank you, Mr. Chairman.
    And thank you to all of our panelists.
    Ms. Lett, it is great to see you here again.
    Thank you all for your testimony.
    To begin, I believe an important takeaway from our previous 
hearing is the need for the OOC and OHEC to become more 
familiar with the policies and procedures not only of the 
workings of both of your organizations but, really, how the 
Ethics Committee process work as well. I also encourage more 
outreach to the Hill in general so you have a sense of how best 
we can all work together to serve and improve this great 
institution.
    I want to focus my questions today, though, on Ms. 
Grundmann, and I really want to focus on OOC's outreach to the 
Hill.
    Your testimony discusses the need for new employees to 
receive training. How is the OOC currently reaching new 
employees with this information?
    Ms. Grundmann. We have a very unique mandate. In fact, we 
are compelled to train on our statute by the law. And it is a 
very robust program, for a very small office, that is 
administered largely by two people.
    As I stated in my opening statement, 500 people have been 
trained in person in the last 6 weeks. Our online training 
module has soared in recent times, and here is an example: In 
September, five people completed the online training module for 
sexual harassment prevention training. In October, it was 618. 
In November, it was over 4,000, with 800 people arriving just 
last week.
    So, in addition to this type of training, we are developing 
new training. Coming on December 10 is a new comprehensive 
online module that talks about anti-harassment, anti-
discrimination, anti-retaliation. In production right now is an 
overview orientation of the Congressional Accountability Act. 
We have a new module coming up, as well, that will focus on how 
to report sexual harassment, how to respond to sexual 
harassment, and behaviors that could lead to sexual harassment.
    In addition, let's talk about new employees. We don't know 
who these new employees are. We would love to be notified as to 
when new people are onboarded so that we can communicate with 
them directly----
    Mr. Davis. So let me get this straight. There is no contact 
between our office of--our payroll office here at the House of 
Representatives and your office when a new employee comes on 
board?
    Ms. Grundmann. That is correct.
    Mr. Davis. Okay.
    You mentioned in your testimony, too, you wanted to reach 
more younger staffers.
    Ms. Grundmann. Yes.
    Mr. Davis. Are you seeing the younger staffers taking these 
training modules that you just mentioned in the last few 
months? Or do you show by age--and how are you going to reach 
more younger staffers?
    Ms. Grundmann. Well, let me answer that question. We don't 
know exactly the age or the person that is taking the module; 
we just know the hits that we are receiving.
    What we could explore doing--and we could do it with this 
committee and the members of this panel--is a particular module 
designed specifically for new employees and younger employees. 
They do face different issues.
    Mr. Davis. Okay. I think it is a great point that there 
probably needs to be more communication between our offices 
that are run by the CAO and the OOC to make sure that those 
modules are out there and the training is in.
    I also think it is important that we develop training for 
senior managers, because they are going to be the first ones 
that an employee will go to to address the process, and I think 
our senior managers need to know a little bit more about the 
process. How can we address that?
    Ms. Grundmann. Well, there is actually a module in place 
right now on anti-discrimination, anti-harassment, and anti-
retaliation that actually meets the standards for managers in 
the Senate. It is a resolution that passed recently. So it is 
there already.
    Mr. Davis. Well, excellent.
    And, in your testimony, you talked about how you hope to 
strengthen OOC and your outreach programs. We look forward to 
working with you to do that.
    I do want to point out that the author of the Congressional 
Accountability Act, our former colleague, Chris Shays, is in 
the audience today.
    And thank you for your work on this, Congressman Shays.
    I do want to point out, while I have a little bit of time 
left, Ms. Grundmann--and I notice that we have many of your 
annual reports that will come out every couple of years. There 
wasn't a lot of focus in the 2016 report on sexual harassment 
in the workplace. And I would hope, as we move forward, that 
the OOC and those who make up the agency would help us help you 
identify how we can better serve all of our employees at all 
levels and also understand how we can get anybody who may be a 
victim in front of you, in front of the office, and on the path 
to get the problem rectified. That is the goal.
    And I appreciate you being here.
    Ms. Grundmann. Great. We couldn't agree with you more.
    Mr. Davis. Thank you.
    I yield back.
    The Chairman. The gentleman yields back.
    The Chair will now recognize the gentleman from Maryland, 
Mr. Raskin, for 5 minutes.
    Mr. Raskin. Thank you very much, Chairman Harper.
    So I think I want to begin with a question with Ms. Lipnic.
    The less power in equality that women have in the 
workplace, the more vulnerable they are to sexual harassment. I 
think we have to take it as both a sign and a cause of progress 
here that we have 84 women, I think it is, in the U.S. House 
today and 21 in the Senate. One can only imagine the conditions 
of sexual harassment when the Senate and the House were all 
male, or virtually all male.
    But I saw an interesting comment by Barbara Ehrenreich, who 
has noted kind of a class bias in the sexual harassment 
discussions that we have been focused on, lots of women who are 
in professional jobs. And she said people are not talking about 
the hotel workers, the farm workers, the waitresses who face 
rampant sexual harassment and so on.
    And I am just wondering, is there anything that we can do 
that will benefit everyone, if not in the same legislation, 
necessarily, but are there policies we can advocate that will 
actually make a change for people across society?
    Ms. Lipnic. Thank you for that question.
    So, in our work at the EEOC, you are absolutely right. I 
mean, we see harassment claims across industries, across income 
levels, from the executives suite to the factory floor, to the 
farmers' fields. We have had horrendous cases of harassment for 
particularly vulnerable workers.
    That is part of the reason why, when we put our task force 
together, we included representatives from worker advocacy 
groups. So, certainly, things that are more outreach along 
those lines and that recognize the work advocacy groups, worker 
advocacy groups, can play and how individuals who are in 
vulnerable work situations can go to those organizations and 
seek some redress.
    You know, certainly one thing to consider--and this is 
something that we have in the Federal sector--is requirements 
that information is provided in different languages so that, 
you know, you are reaching populations, particularly for 
vulnerable workers, who English may not be their first 
language. So that is certainly one thing to consider.
    In terms of legislative changes, in terms of Title VII, I 
am not sure that there is--I am not sure that there is anything 
that I could recommend right now, and I certainly would be 
happy to give more thought to it.
    Mr. Raskin. Okay. Let's pursue that----
    Ms. Lipnic. Sure.
    Mr. Raskin [continuing]. If we could. And I thank you very 
much.
    Ms. Lett, let me ask you, you began by mentioning this 
interesting article, which I saw too, ``Question My Story'' by 
a victim of sexual harassment. And you invoked her description 
of gray areas and the lack of third-party witnesses and so on.
    And it brought to mind the F. Scott Fitzgerald saying that 
the sign of first-class intelligence is the ability to hold 
contrary thoughts in your mind at the same time and still 
conduct yourself effectively.
    And everyone agrees we need zero tolerance, and everyone 
agrees we also need a process that is fair to the victims and 
fair to the accused. The problem is that people today think 
that our process is so cumbersome and convoluted that its 
purpose is not to discover the truth but somehow to bury the 
truth or to complicate the truth. That is, at least, the public 
perception.
    And so can we do to make sure that we do have a process 
that is fair, that is perceived as fair, but also moves things 
quickly enough so that people see that we are taking the issue 
seriously?
    Ms. Lett. Well, as I mentioned before when I was asked a 
question about the cooling-off period, I don't have a practical 
reason to think that that is not a good idea. Certainly, it is 
not going to change how we do business. And so eliminating, 
possibly, that particular piece of the process might be 
helpful.
    I do think that there--and I know that the Office of 
Compliance can speak more to this, but----
    Mr. Raskin. Just to be clear, you were saying that we don't 
need the cooling-off period?
    Ms. Lett. From my perspective, I don't think it is needed. 
As I said, the one reservation I have is that it does provide 
an additional chance to resolve a matter before a full-blown 
litigation begins.
    I do think it is important to communicate to employees 
their rights. That is not my job, not our office's job. And I 
know that there have been, over the years, efforts by the 
Office of Compliance. I remember when I first started on the 
Hill, we would get paychecks, and there would be communication 
about the Office of Compliance and our rights under the 
Congressional Accountability Act. So more efforts, of course, 
to train employees, to make them aware of their rights, and 
ongoing communication, I think, would be helpful.
    I have to say, the plaintiffs' bar is very savvy about 
these rules, and, typically, employees don't have problems 
getting attorneys representing them. Most of the concerns I 
have heard is that the process is lengthy. So eliminating the 
cooling-off period would be helpful.
    Mr. Raskin. Thank you.
    Mr. Chair.
    The Chairman. The gentleman yields back.
    The Chair will now recognize the gentlelady from Virginia, 
Mrs. Comstock, for 5 minutes.
    Mrs. Comstock. Thank you, Mr. Chairman.
    I wanted to focus on what you cited, Ms. Lipnic, as one of 
the best prevention methods, which is the trusted complaint 
procedures.
    Now, we have the procedures that by law you are required to 
have. So I appreciate, Ms. Lett, as you laid out, you know, you 
have to deal with both sides. But we have been talking about 
and I think a number of us have talked about having some type 
of victims advocate, having a separate person for the victim, 
whether it is an ombudsman, an advocate, a victims counsel.
    Wouldn't that help, if we had somebody where the victim can 
go--and even if they have had the training, you know, when you 
are in that situation--you know, I mean, we have special people 
for rape victims, they then go, and you are walked through the 
whole process at that point when you are in crisis.
    So if we could have somebody that they could go to in that 
type of situation, wouldn't that improve the whole dynamic of 
the experience of the victim, putting them on a level playing 
field and helping them through this process?
    I will start with you, Ms. Lipnic.
    Ms. Lipnic. Sure. I think that is a very valuable 
suggestion.
    One of the things I would tell you, that when we were doing 
the work of the task force, we actually invited people from the 
Pentagon, from the Defense Department, because of what they 
have been dealing with for the last, you know, 14 years and 
their own internal procedures as to sexual assault in the 
military.
    And so having a victims advocate is something I know that 
they set up there, and I would urge you to maybe consult with, 
you know, the generals there who have been dealing with that, 
and they would have more experience with that.
    But that is something that--I think your focus on 
addressing the immediate situation for the person, what can 
help them in that immediate situation, how will they know what 
is going to happen, and what is the corrective action that is 
taken immediately, needs to be a big focus.
    Mrs. Comstock. Okay. Thank you.
    And I know that is in Congresswoman Speier's legislation 
and Congressman Byrne had talked about that. And I do want to 
thank Ms. Bertucci again, because when I had asked her, with 
her situation, what could we do that would have helped, an 
ombudsman, a counsel, an advocate was the single thing that she 
identified that I do think--just thinking about that 
experience, I think it is very important that we get that in 
the legislation and then also have that be, you know, imbued 
through the training also.
    Perhaps on the training process, too, you know, when 
someone sets up a House account and they are a new employee, 
maybe we can have more socialization in getting information 
directly to them in multiple methods, not just, ``Here is a 
class you can go to,'' but let's make sure we are getting, you 
know, more information out that way.
    And then I wanted to--I guess the Office of Compliance. I 
know you are continuing to go through the records and to give 
us the information on the overall cases.
    And I think, Ms. Lett, you went through the type of cases 
you are getting.
    But given the public's concern and, sort of, the public 
right to know about what type of cases you are dealing with, 
and particularly, you know, when Members are involved and/or 
Members' staff, do you estimate you will have that information 
soon so that we can have that available for the public in 
whatever legal way you are allowed to have it, have a much more 
detailed accounting?
    Ms. Grundmann. A couple things. Let me just address the 
victims counsel just specifically, because it was part of our 
statement.
    We understand that during at least the counseling stage and 
certainly in the mediation stage, when the employing office is 
represented by OHEC, that the victim feels entirely alone and 
is at a severe disadvantage. So what we have proposed to do is 
really beef up the counseling stage so the counselor actually 
actively participates in technical advice, in drafting a 
complaint.
    That coupled with investigatory authority given to our 
general counsel to immediately investigate these claims as it 
emerges can be a form of advocacy on behalf of the employee.
    But in response to your question--and this actually 
dovetails into Mrs. Brooks' request to us regarding the ethics. 
We provided a response this morning. The law as it is currently 
written is difficult for us to produce this kind of 
information, because we know that in counseling it is a strict 
confidentiality, and that binds our office from discussing it. 
The employing office, as Gloria Lett said, is not told.
    In mediation, there is also strict confidentiality. And 
that specifically adheres to the products, the materials that 
are produced in mediation. And that is, again, strictly 
confidential, but it is not unusual in our process. Mediation 
is private throughout the industry.
    What our law specifically requires, in terms of producing 
information in the rules, is numbers and types of inquiries 
that come to our office, number and types of initial requests 
for counseling, numbers of covered employees to the complaints 
they file, the claims they raise, and the disposition of those 
claims.
    In terms of disclosure to Ethics, we, to our knowledge, 
have not received any requests up until this recent one, so we 
appreciate the concern. The law as it is currently written only 
allows us to disclose this type of information in a very narrow 
circumstance, under two conditions: when the case reaches a 
final decision and the employee is consulted. So, in the event 
that we cannot release documents with respect to counseling, 
mediation: where there is no final decision and when the 
employee has not been consulted.
    Having said that, we would like to work with this committee 
to change that rule. And a potential change really goes towards 
granting us the authority to investigate claims. If the general 
counsel were granted that authority, it would be similar to 
what we have in ADA and OSHA. The general counsel, at that 
point, could find--if there is reason to believe that the law 
had been violated, a report could be generated. And that report 
could be made available to you.
    Mrs. Comstock. Okay.
    And, Mr. Chairman, I would just mention, I hope we can get 
much more detailed information, and if we need to make changes 
to allow you to do that, because if we are going to correct the 
process, we need to know what has happened, where the 
complaints have been.
    I noted the committee got a report on November 28, a memo, 
detailing from 1997 to 2007, where it laid out that 90 percent 
of the cases were with the Architect and the Capitol Police--
probably a lot of safety things.
    But I think we need to know what are the type of cases and 
then when Members or Member offices are involved and how we are 
going to do that going forward.
    But I think the public has a right to know that, going 
back, and, certainly, going forward, how we can improve that 
transparency. So I hope you can work with us on that in getting 
more detail.
    Ms. Grundmann. Understood.
    The Chairman. The gentlelady yields back.
    The Chair will now recognize the gentlelady from 
California, Ms. Lofgren, for 5 minutes.
    Ms. Lofgren. Thank you.
    And my apologies for being tardy. The FBI Director is over 
in the Judiciary Committee, and I had to be there for a bit. 
And I think my colleague Mr. Raskin has the same conflict.
    This, obviously, is a very serious matter for us. And we 
are, I think, very clearly going to change the procedures and 
the statute that we have. So the question is how to do that, 
how to avoid pitfalls.
    And one of the things that I am interested in is the 
recommendation that you have made, Ms. Grundmann, on the 
additional powers for the general counsel that you just 
referenced, specifically how the counsel would use those 
investigative powers to get to the facts of the matter that you 
currently can't do.
    What conflicts might exist if that were assigned to you? 
And could you more fully explain that to us?
    Ms. Grundmann. Absolutely.
    Rather than reinventing the wheel, we propose to use the 
internal mechanisms that we currently have. And the general 
counsel, as we state, does have investigatory authority in 
certain areas, such as in OSHA and ADA.
    And how that really works is a claim can be filed 
anonymously, which is unusual. It is not the same in the labor 
forum. But the current practice would be we would work, the 
general counsel would work with the employing office. Now, 
clearly, that is not going to work in this particular 
circumstance. But, in the investigation, there is a move 
towards resolution. Because in OSHA cases and ADA cases, there 
are a lot of dollars involved, so there is a significant amount 
of negotiation and discussion.
    If the matter is not resolved, it could result in the 
filing of a complaint by the general counsel. The general 
counsel actually represents the employee, in this case, in 
moving the case forward. That is the process we envision 
putting into effect.
    The reports are not made public. And they are given to the 
party that can control the outcome, who can fix the outcome, if 
you will.
    So the process is in place. The concern we have is the lack 
of staffing. We don't know how great the volume will be----
    Ms. Lofgren. Right. Of course.
    One of the things that I think--we want more transparency 
on some of this. I mean, if you have an employer-employee 
dispute--for example, under the act that we adopted in 1995, 
certain employees are exempt from overtime and certain 
employees aren't, just as in the private sector. You could have 
a dispute about that category and a fight about overtime. I 
don't know that that needs to have the same level of disclosure 
as a sexual harassment thing. We want to stomp that out, and 
part of the way to do that is to have some daylight on this 
process.
    So one of the things I have been thinking a lot about--and, 
certainly, my colleague Ms. Speier has done the work on this 
bill, but it is a beginning point--how do we make this 
transparent in a way that protects the victims who want to 
maintain their privacy, but some victims are bullied into a 
confidential agreement.
    So I am just wondering in terms of what other people in an 
office where there is sexual harassment, what their role is, 
what their obligation is, and are they constrained by these 
agreements that are being undertaken right now.
    Ms. Grundmann. So part of our training in the future, 
coming soon, will cover bystander training--specifically, how 
do people who view this type of activity, what do they do. And 
I think that is something Representative Speier has previously 
mentioned in terms of our training. It is a hard area for us to 
deal in. The confidentiality that is currently in the rules 
prohibits us from having a conversation----
    Ms. Lofgren. Yeah, but we can change those rules.
    Ms. Grundmann. And let me urge this committee, as you go 
about changing these rules, one of the communities that you 
need to reach out to really is the plaintiffs' bar and the 
employee representatives.
    Ms. Lofgren. Right. And we are doing that.
    Ms. Grundmann. Let me also talk a little bit about what we 
hear on nondisclosure agreements. That is a very confusing 
area, but we have a very simple answer. We don't require 
nondisclosure agreements. It is a product of the parties. We 
don't provide standardized language. And we don't require 
anybody to sign a nondisclosure agreement to come into our 
system.
    Ms. Lofgren. All right. That is important, but, certainly, 
the inherent power differential between, say, a Member of 
Congress who is harassing and a staffer who has been harassed 
is pretty extreme.
    Ms. Grundmann. Absolutely.
    Ms. Lofgren. And I read an article recently about a young 
woman who stepped forward and has never been able to be 
employed again, even though she did the right thing. So, 
certainly, we need to get our heads around how to protect 
victims even beyond a settlement agreement.
    And I see my time has expired, Mr. Chairman.
    Thank you very much for your testimony.
    The Chairman. The gentlelady yields back.
    The Chair will now recognize the gentleman from North 
Carolina, Mr. Walker, for 5 minutes.
    Mr. Walker. Thank you, Mr. Chairman.
    Again, I would like to thank Representatives Bradley Byrne 
and Susan Brooks for the leadership not just on this committee 
but the example that you set in our entire conference.
    I have a couple questions for Mr. Crowley.
    It has come to our attention that Federal agencies are 
required to reimburse this judgment fund for judgments against 
agencies and settlements for discrimination in the workplace, 
yet there is no comparable requirement for Congress.
    So, when we talk about liability, what discussions were 
held prior to or during consideration of the Congressional 
Accountability Act regarding personal liability for settlements 
and final judgments awarded under the CAA?
    Mr. Crowley. Well, Congressman, again, my memory is two 
decades old here, but----
    Mr. Walker. I understand.
    Mr. Crowley [continuing]. As I recall, there was a very 
clear discussion early on that would have simply prohibited 
personal liability for Members, as well as punitive damages.
    That changed, as the process unfolded, to limiting the 
ability to pay judgments out of the new fund that was created. 
And, of course, those discussions occurred extensively with the 
Subcommittee on Legislative Branch Appropriations, who had a 
significant input into that decision.
    But I think the general notion was that, first of all, it 
is not the Member personally, it is the employing office of the 
Member, so that, for example, if a Member leaves office, there 
would still be the ability to get restitution from the office 
after the fact.
    Mr. Walker. Okay.
    Mr. Crowley. So I think it would be aberrational to hold 
Members personally responsible when, in fact, it is an 
employing office of the Congress for all other purposes, 
including the Federal Tort Claims Act, et cetera.
    Mr. Walker. Okay. All right. You covered, actually, the 
second part of that question, so let me then ask this: Is there 
any provision in the Congressional Accountability Act or in 
House rules that would forbid the use of the MRA funds to pay 
for a settlement reached at any point during the dispute 
resolution period?
    Mr. Crowley. I am not sure there is a clear answer to that 
question. There is, in the statute, a limitation on what funds 
can be used to settle claims. But, of course, Members have 
broad discretion over the use of the MRA, and I imagine that, 
in certain circumstances, particularly when part of the 
settlement involves reinstatement to a position, that 
implicitly the MRA would be used.
    Mr. Walker. Yeah. And I can't imagine that that wasn't part 
of the discussion, with the authority that a Member would have. 
And even going back to those years, the budgets for staffing 
were much higher than they even exist today. You know, a 2-week 
settlement or a month for conflict resolution or maybe an 
employee didn't fit, but the authority or the ability to cover 
up such office behavior, wrongdoing, harassment, leaves a lot 
of discretion in the Members' hands.
    So is that what you are telling me, that there can be a 
separate settlement or payment outside of the Congressional 
Accountability Act using the MRA?
    Mr. Crowley. I think Members implicitly have that 
authority. But you have to remember that, at the time--the MRA 
didn't exist until Bill Thomas created it. Before that, we had 
the Clerk Hire Allowance and roughly a dozen different 
allowances that were consolidated with the specific intention 
of giving Members discretion on how to deploy those resources, 
to such an extent that the committee was actually renamed from 
the Committee on House Administration to the Committee on House 
Oversight to emphasize the fact that it was not going to be 
determined at the committee level but by the individual Member.
    And so I think that there is some conflict between the 
Congressional Accountability Act language and the inherent 
authority that Members have over the MRA.
    Mr. Walker. Your testimony highlights the Speech or Debate 
Clause within the Constitution. Can you explain to the 
committee how this clause has been interpreted by the Supreme 
Court in its applications within the context of the 
Congressional Accountability Act?
    Mr. Crowley. Yes, sir.
    The lower courts--I don't think the Supreme Court has 
ruled, but the lower courts, the D.C. Circuit in particular, 
has ruled that the Speech or Debate Clause does not preclude 
suits under the Congressional Accountability Act, but there 
still remains the immunity that is essentially an affirmative 
defense that Members can assert.
    And so we have created sort of a gray area. You know, 
stepping back to the original discussions around the act, there 
was case law saying that it is unclear whether Congress can 
waive its constitutional privileges, but any waiver would have 
to be explicit and unequivocal.
    Mr. Walker. Yep.
    Mr. Crowley. And I would have to say that in the 
Congressional Accountability Act we equivocated.
    Mr. Walker. And one last question. It is a simple ``yes'' 
or ``no,'' Mr. Crowley. Do you believe it is wrong for Members 
to use the MRA to settle interpersonal sexual harassment 
claims?
    Mr. Crowley. My personal opinion?
    Mr. Walker. Personal opinion.
    Mr. Crowley. That the taxpayers should not be on the hook 
for that.
    Mr. Walker. Thank you.
    With that, I yield back, Mr. Chairman.
    The Chairman. The gentleman yields back.
    The Chair will now recognize the gentleman from Nebraska, 
Mr. Smith, for 5 minutes.
    Mr. Smith. Thank you, Mr. Chairman.
    Thank you to your witnesses. And I certainly thank you for 
this interaction today among members, and certainly a very 
serious topic.
    It is interesting, I appreciate my colleague Mrs. 
Comstock's recommendation for a victims advocate. And if each 
of you, starting with Ms. Grundmann and Ms. Lett, if you could 
express how that might be able to be brought into the existing 
process, what changes might need to take place so that, if that 
is the decision, to make changes, if that would work and how 
that might work.
    And then, Ms. Lipnic, if you could perhaps express your 
knowledge of how that has been done elsewhere and how effective 
it has been.
    Go ahead, Ms. Grundmann.
    Ms. Grundmann. Sure.
    What we propose really is beefing up what we already have, 
rather than throwing out what we have and creating a separate 
office.
    We could take the counselor's position and actually make it 
a much more interactive process with the employee, whereby the 
counselor would help technically advise the employee on how to 
draft a charge or a complaint, coupled with using the general 
counsel and giving him the authority to investigate claims in 
the dispute resolution program.
    If the general counsel were to find that there is a 
reasonable cause to believe that the law were violated, he 
would actually represent the employee in further administrative 
processes.
    Mr. Smith. Thank you.
    Ms. Lett.
    Ms. Lett. I would have to think a little bit more about how 
it would work, in terms of the specifics. But I can tell you 
that it would likely be a welcome thing, from my clients' 
perspective, in that I think an advocate would encourage 
employees to come forward sooner rather than later.
    That would be music to our ears, certainly, because the 
sooner an employer knows that there is an issue, the sooner 
they can address it. It is not a good model when things barrel 
way down the track and an employee feels that he or she has--he 
or she--has to go to the Office of Compliance for relief. So I 
think there absolutely could be some upside to that.
    Mr. Smith. Okay. Thank you.
    Ms. Lipnic.
    Ms. Lipnic. Mr. Smith, all I would add is, by the time 
people are coming to the EEOC to file a charge of 
discrimination, at that point we are investigating for 
liability purposes. So there is no victims advocacy role on the 
part of the EEOC itself.
    Mr. Smith. Okay. Thank you.
    Mr. Crowley, do you wish to comment?
    Mr. Crowley. Well, I think it is an interesting idea. It is 
amazing to me the extent to which the issues haven't 
fundamentally changed. The intent at the time was to create a 
process that would both encourage victims to come forward and 
allow for resolution in a way that didn't incentivize 
politically charged claims immediately before an election. And 
so anything consistent with those objectives, which this sounds 
like this might be, seems worth pursuing.
    Mr. Smith. Okay. Thank you.
    I yield back.
    The Chairman. The gentleman yields back.
    The Chair will now recognize the gentleman from Georgia, 
Mr. Loudermilk, for 5 minutes for questions.
    Mr. Loudermilk. Well, thank you, Mr. Chairman.
    And thank you all for being here.
    Of all the issues that I ever thought I would be dealing 
with when I ran for Congress, this is not one of them. And, in 
fact, it sickens me, the idea that the most respected 
legislative body in the world's reputation is being tainted by 
us discussing this. But it is extremely important.
    And it boils down to character. And, in reality, there is 
nothing we can do to affect someone's character, but we can 
remove the bushes that allow the bad characters to hide behind. 
And I think that is kind of the direction that we are looking.
    Ms. Grundmann, in your testimony, you described in detail 
OOC's process and make several recommendations. But one of the 
areas that you didn't really address is OOC's rule in 
administering the award settlement fund. Can you kind of take 
us through your role in the payment process once the tentative 
settlement is reached or a final judgment is received?
    Ms. Grundmann. Absolutely. But, first, if you will allow me 
to clarify. The statute refers to funds that are appropriated 
by the Treasury. In actuality, there is no fund. It is an 
account, and that account is empty until we requisition the 
funds for a particular award or settlement.
    And, also, to be clear about this settlement account, the 
$17 million we have talked about, yes, it covers awards and 
settlements from our dispute resolution process. It also covers 
awards and settlements from district court. It also covers 
settlements and awards that derive out of the arbitration 
process for various collective bargaining agreements in the 
legislative community, such as at the Architect of the Capitol 
and at the Capitol Police.
    Mr. Loudermilk. Okay. Can I ask one quick question?
    Ms. Grundmann. Sure.
    Mr. Loudermilk. And we will get back to this. It is a zero-
dollar account. When something occurs like we are talking about 
here, where does the money come from?
    Ms. Grundmann. We actually requisition it. The account is 
empty until a settlement comes through, and then we ask for the 
money through the vehicle of a warrant, which should be 
familiar to this committee.
    Mr. Loudermilk. Right.
    Ms. Grundmann. Our role in settlements is purely 
ministerial. The parties negotiate the terms. It is incumbent 
upon them to agree. It is incumbent upon OHEC to secure the 
proper authority from this committee when settlements come out 
of the Treasury for the House.
    But should Congress desire to beef up our role, for 
instance, by giving us a greater review for legality of these 
decisions, you would have to change the act. Currently, we 
don't have the authority. The only thing we look for is whether 
it is signed by the parties and it is a written statement.
    Mr. Loudermilk. Can you kind of walk me through this 
process of, say, this zero-dollar account? You receive notice 
of a settlement of X number of dollars. Then you request, 
through a warrant, that much money.
    Can you start at that point? Walk us through who sends the 
money to the account. Is it the Treasury? Is it from House 
Appropriations? And until the individual who filed the 
complaint receives the check, what is that process?
    Ms. Grundmann. Let's take one step back.
    Mr. Loudermilk. Okay.
    Ms. Grundmann. When the settlement is reached, the award 
comes to our office. We review it for two things: in writing 
and signed by the parties. That is it. And clarity, 
essentially.
    That settlement agreement then goes to our case 
administrator. She obtains payment information from the parties 
who will receive payment--routing information, banking 
information.
    Then the document moves down the hall, and it goes to our 
budget officer. She actually requisitions the funds--this is 
the account we are talking about--through the vehicle of the 
warrant.
    And once the funds are there, the settlement agreement 
actually goes to a fourth----
    Mr. Loudermilk. Who do the funds come from?
    Ms. Grundmann. They come from Treasury.
    Mr. Loudermilk. From Treasury. Okay. Thank you. Sorry.
    Ms. Grundmann. And then the final step that we have in this 
process is the agreement goes to a fourth person to check that 
all the information is correct, the routing information. And 
then the funds are released.
    At that point, our involvement with the fund ends. We do 
not determine when the person is paid. There could be an 
offset, for instance. But we are done with the process.
    Mr. Loudermilk. Okay.
    Is there any other process in there to where anyone in 
Congress notified of a settlement, has to sign off on it? Or is 
it just within your office?
    Ms. Grundmann. Other than rule X, which governs this 
committee, whereby the Chairman and the Ranking Member have to 
sign off on particular settlements that come out of this 
account, that is the only rule.
    Mr. Loudermilk. So, in that process, then, the Chairman and 
Ranking Member do sign off on that?
    Ms. Grundmann. That would be a good question for Ms. Lett.
    Mr. Loudermilk. Okay.
    And, Ms. Lett, in the few moments left, could you answer 
that question?
    Ms. Lett. The answer is yes. If there is a settlement that 
comes out of the Treasury, that has to be approved by this 
committee.
    Mr. Loudermilk. Okay. Thank you.
    Mr. Chairman, if we do other questions, I have some others, 
but I will yield back at this point.
    The Chairman. The gentleman yields back.
    The chair will now recognize Ms. Speier for 5 minutes for 
questions.
    Ms. Speier. Thank you, Mr. Chairman.
    Mr. Chairman, it has been said a couple of times and I just 
want to underscore the importance of having the plaintiffs' bar 
appear before the committee, as well, to hear from them how the 
process has or has not been working so we can refine it moving 
forward.
    To the last question that Mr. Loudermilk just raised, it 
was my understanding in one article that I read that the former 
chair of this committee declined to approve any sexual 
harassment cases, and, as a result, the MRA started to be used 
for that process.
    Is that your recollection, Ms. Lett?
    Ms. Lett. That is not exactly accurate. There were more 
than sexual harassment cases that were not approved.
    Ms. Speier. Well, maybe so. But were there sexual 
harassment cases in which the former Chair declined to sign off 
on--the Ranking Member was not made aware of. That is how it 
was reported, and I am trying to get clarification.
    Ms. Lett. I don't remember the exact number. It may have 
been one or two, but it certainly was not more than that.
    Ms. Speier. So if it is not signed off by the Chair, then 
there has to be another way in which the settlement is reached. 
And that, in my understanding, is how the MRA has been used in 
some cases.
    Ms. Lett. That is correct.
    Ms. Speier. I want to focus back on the victim. One of the 
problems--and you made mention of it, Ms. Lipnic--is that you 
have a victim who has come forward, is concerned about the fact 
that she has been sexually harassed, either by the Member or 
someone in the office, but she has to continue to work in that 
office in order for it to be resolved through the Office of 
Compliance. If she doesn't continue to work in the office, then 
the Office of Compliance has no role, correct?
    Ms. Grundmann. Oh, you are talking to me? I thought you 
were talking to Ms. Lipnic.
    There is a concern that we haven't discussed here today, 
and that really is about retaliation. You know, the employee 
has filed a claim----
    Ms. Speier. That is what I am getting to.
    Ms. Grundmann. Perfect.
    Retaliation is covered currently under the CAA, in that an 
employee who has come to our office, experienced some sort of 
retaliation, would have a separate claim.
    But here is how the process works. The employee comes in. 
They seek counseling. They go to mediation. The employee office 
now knows of the claim. There is retaliation that occurs. Under 
the current process, that employee would have to restart the 
process again, go back through counseling, go back through 
mediation.
    And this is why we propose the possibility of 
investigations for our general counsel and the possibility of 
amending the complaint so that the charges all merge at one 
point in time, rather than going back through the whole system 
again.
    Ms. Speier. So I am also concerned, though, that we don't 
have a means yet--and possibly should consider this--to allow 
the employee to work remotely, to the extent that they can. In 
some offices, you can't. If you work for the Architect and you 
have to be painting offices, you can't do that remotely. But in 
offices where you can, so that there is not the continued 
environment that is very uncomfortable for the victim.
    Ms. Lett. May I address that, Congresswoman?
    There actually is a way that that can happen. And it has 
happened in other cases. In the----
    Ms. Speier. I think we just need to make it explicit, is 
what I am suggesting. I don't think it has always been the case 
for everybody. One of the complaints that was filed that went 
through the process, the employee had to be in the office. And 
I don't think that is right, personally.
    Ms. Lett. I can speak to--I can't speak to specific cases, 
but, as I said, employing offices have a lot of flexibility in 
this area. And I think that this is an area where employees 
have been very effective, because, as soon as we know that an 
employee has engaged in protected activity, we will counsel the 
employing office very strongly that, while the underlying case 
may not have merit, if the employee is retaliated against in 
any shape, form, or fashion, I mean, if they even have a 
thought bubble to retaliate, they are going to face a very 
difficult case.
    And so, I think, we have never lost a case on retaliation 
because----
    Ms. Speier. Okay. My time is running out, so I am going to 
ask a couple more questions.
    Ms. Lett. Sure.
    Ms. Speier. Soft landings. One case that we all are 
familiar with where the employee, after the settlement, 
couldn't find a job in the Capitol. I would be interested--
maybe we don't have time right now--but some kind of discussion 
about what we do for employees who have, through no fault of 
their own, have been sexually harassed, they have come forward, 
they now have a scarlet letter that they wear and cannot be 
employed elsewhere.
    Ms. Grundmann. Could I answer that question just very 
quickly?
    Under the current law, an employee who has left is still a 
covered employee up to 180 days from the violation. So, if 
there was retaliation, if they had left, they could still file 
a claim for that 180 days.
    Ms. Speier. Yeah, but what happens if they still want to 
work in the building?
    Ms. Grundmann. Larger policy. Yup.
    Ms. Speier. Thank you.
    I yield back.
    The Chairman. The gentlelady yields back.
    The Chair will now recognize the chair of the Ethics 
Committee, Mrs. Brooks, for 5 minutes.
    Mrs. Brooks. Thank you, Mr. Chairman. And thank you again 
for allowing me to participate.
    I would like to ask permission to admit for the record the 
letter that Representative Deutch, my ranking member on Ethics, 
and I submitted that Ms. Grundmann has just referred to, the 
letter of December 1.
    The Chairman. Without objection.
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Brooks. Thank you.
    And I would also ask unanimous consent that we admit into 
the record the Office of Compliance's response that was 
received this morning that I have been reading this morning.
    The Chairman. Without objection.
    [The information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Brooks. Thank you.
    In our letter on December 1, we asked that the committee--
and because this is a hearing about the process and about 
examining reforms to the Congressional Accountability Act, that 
is what I want to zero in on. There are many, many other things 
I would love to talk about.
    However, we asked OOC to promptly provide the committee 
with all records in the possession of the office related to any 
claims of sexual harassment, discrimination, retaliation, and 
so forth.
    The response that we received today indicates that--you 
refer--and I quickly went to section 1416 of confidentiality. 
As I am reading your response, you cannot share, because of the 
strict confidentiality rules, any claims that you have been 
involved in, OOC, relative to referrals to Ethics. Am I 
correct?
    Ms. Grundmann. You are absolutely correct. The way the law 
is written is the confidentiality, the strict confidentiality, 
not only binds the parties, it specifically binds our office 
from discussing those claims.
    And you are talking about claims overall. The law currently 
prohibits us from releasing information regarding in the 
counseling period, in the mediation period, but allows for a 
very narrow exception when a case has gone to hearing and a 
final decision has been rendered and the employee consents.
    Mrs. Brooks. And to that point on the hearing, there was 
only one hearing in 2016, in fiscal year 2016. Is that correct?
    Ms. Grundmann. If that is what is in the letter. I----
    Mrs. Brooks. That is not in the letter. That is on a 
screen-shot on your website.
    Ms. Grundmann. Now, it is possible that that case settled--
--
    Mrs. Brooks. Okay.
    Ms. Grundmann [continuing]. And there was no final 
decision.
    Mrs. Brooks. There was one that indicated a hearing, but 
you indicated in this letter that there have been no 
proceedings before a hearing officer. And the hearing officer 
comes after mediation. It is the end stage of your process----
    Ms. Grundmann. Correct.
    Mrs. Brooks [continuing]. Correct? And you indicate that 
there have not been any proceedings before a hearing officer or 
a board relative to any Members or employees.
    Ms. Grundmann. Correct. That doesn't cover district court.
    Mrs. Brooks. Okay. That covers the court of appeals.
    Ms. Grundmann. It does not cover the court of appeals. It 
only covers our administrative hearing process before one of 
our hearing officers.
    Mrs. Brooks. Okay. And so are you saying that there are 
matters that have gone to district court?
    Ms. Grundmann. There are matters that have gone to district 
court.
    Mrs. Brooks. That you don't have possession of those 
records?
    Ms. Grundmann. We are not part of that process.
    Mrs. Brooks. Okay. And so those people who decide to go to 
district court, they pursue their own process in district 
court.
    Ms. Grundmann. That is correct.
    Mrs. Brooks. And so we are not getting anything.
    Ms. Grundmann. Pardon me?
    Mrs. Brooks. We are not going to receive anything regarding 
any--and we actually asked about any employment matters. We 
actually asked related to claims of sexual harassment, 
discrimination, retaliation, or any employment practice.
    Ms. Grundmann. That goes back to the law. The law doesn't 
allow us to release anything to your committee.
    But if we were to change the law, then we could use the 
method, through investigation by our general counsel, any 
report that is generated where reasonable cause has been found 
that the law has been violated could be released to your 
committee.
    Mrs. Brooks. And so let me ask you, as well as Ms. Lett, 
what are your opinions on mandatory reporting to the Ethics 
Committee in harassment matters?
    Ms. Lett. I have to say that is a very difficult question 
to answer. When we handle matters of discrimination and we talk 
with our clients, we tell our clients that it is possible that 
we will resolve the case or the case may go forward, but there 
may also be some type of Ethics matter that might arise out of 
those circumstances. So they will know that they may be 
fighting on two fronts, whatever the claim may be.
    Mrs. Brooks. And can I ask, Ms. Grundmann: In your letter, 
you state to us that you have encouraged employees who have 
been the victim that may constitute an ethical violation to 
contact our committee--how do you do that?--and to cooperate 
with our investigation.
    Ms. Grundmann. We do that through the counseling period.
    Mrs. Brooks. And is that just written? It is a written 
discussion? Or do you provide them that in writing, that they 
should----
    Ms. Grundmann. Counseling is generally by phone or in 
person. So it is a verbal discussion.
    Mrs. Brooks. And is there any discussion--and I am sorry, 
my time is up. But my question was, is there any discussion 
about the confidentiality of the Ethics proceedings, in many 
ways, not that initial investigations might not be reported, 
but, in fact, very often the witnesses, the complaining 
witnesses, are often kept confidential?
    Ms. Grundmann. I believe there is.
    Mrs. Brooks. Okay. Thank you.
    I yield back.
    The Chairman. The gentlelady yields back.
    The Chair will now recognize the gentleman from Alabama, 
Mr. Byrne, for 5 minutes.
    Mr. Byrne. Thank you, Mr. Chairman. And I appreciate your 
allowing me to participate in this hearing. It has been very 
edifying for me.
    Mr. Crowley, I want to make sure I clarify one thing with 
you. I don't think you are saying this, but I want to make sure 
we get this very clear. You are not saying the Speech or Debate 
Clause provides immunity to a Member or a Member's office if 
they engage in sexual harassment.
    Mr. Crowley. Congressman, that is a very difficult question 
to answer. Clearly, the conduct itself is not protected. The 
question becomes what happens when a Member of Congress asserts 
that a discriminatory action, which, of course, sexual 
harassment includes, was not motivated by what the victim says 
it was--clearly, sexual harassment, under any circumstances----
    Mr. Byrne. But that would not be sexual harassment then.
    Mr. Crowley. Well, keep in mind that sexual harassment is a 
form of discrimination under the----
    Mr. Byrne. It is a subset of discrimination based on 
gender, but sexual harassment cannot be immunized by the United 
States Constitution.
    Mr. Crowley. That is correct.
    Mr. Byrne. Okay. I wanted to make sure we got that clear.
    Now, I want to move to what we do about it. And I think 
where we are really touching here is how we investigate and 
enforce this.
    Ms. Grundmann, you do not have the authority to investigate 
or enforce that today, in sexual harassment.
    Ms. Grundmann. That is correct.
    Mr. Byrne. But if it was an OSHA a case, you would.
    Ms. Grundmann. That is correct.
    Mr. Byrne. Why would there be a distinction between OSHA 
cases and sexual harassment cases?
    Ms. Grundmann. We have those same questions.
    Mr. Byrne. Okay.
    Mr. Crowley, do you want to answer that question?
    Mr. Crowley. You know, Congressman, the honest answer is I 
don't recall. I do recall conversations around having the 
Office of Compliance play a particular role with respect to the 
ADA and OSHA because it was a case of first impression. These 
are historic buildings. If there needed to be retrofitting of 
an elevator shaft, for example, it was a more involved 
discussion. And so that was the reason that the Office of 
Compliance was given responsibility in that area. But why it 
didn't go further, I can't tell you.
    Mr. Byrne. Well, I will say this. A lot of case law 
occurred in this area after 1995. I mean, we have the Faragher 
decision from 1998, the Oncale decision. So a lot happened 
after that time that you wouldn't have known about at the time 
you were writing it.
    So, Ms. Lipnic, let me turn to you. You do have the power, 
whether it is in regard to people in the private sector or 
Federal employees that don't work for Congress, you do have the 
power at the EEOC to both investigate and enforce. Do you think 
that the Office of Compliance should have similar powers when 
those sorts of things come up with regard to Members of 
Congress or people that work for us?
    Ms. Lipnic. The short answer is yes.
    Mr. Byrne. Okay. I like short answers. They are the best.
    Ms. Lipnic. Again, as you well know--and, you know, I 
thought your testimony from the November hearing was spot-on. 
Again, this point I keep making, there is the difference 
between that immediate investigation that has to take place and 
that corrective action. And then, you know, the investigation 
at the EEOC is when someone comes to us, and we are 
investigating, essentially, was there an investigation, what 
happened internally, what was, you know, the corrective action 
taken by the company. But someone needs to be doing that.
    And, now, it is my understanding from the testimony that I 
read that the House Employment Counsel plays that first role, 
in terms of investigating Members' offices. But I think it is 
certainly worth considering, do you want to have, you know, a 
third party, essentially, who is not then representing the 
Members' offices later on in the process, conducting that 
initial investigation and then also making some determination 
in terms of liability.
    Mr. Byrne. Here is a really sticky issue. And, Ms. Lett, I 
am going look at you for this one.
    Now, in the private sector, where we don't have public 
disclosure issues, when we engage in mediation or we engage in 
settlement discussions and we reach an agreement, it is almost 
always confidential. Mediation rules require confidentiality, 
and the settlement agreements, which are contracts, have 
confidentiality provisions in them because the confidentiality, 
or the promise of it, helps foster the negotiations, helps 
foster people coming to a meeting of the minds.
    How do we resolve that tension here in the public sector?
    Ms. Lett. I wish I had an easy answer for you on that one, 
Congressman. There is a tension there. Oftentimes, the 
employees want that confidentiality because they want to go and 
they want to get other jobs. Certainly, Members of Congress 
want that confidentiality, because even if a Member or the 
office has done absolutely nothing wrong, putting that 
information out into the public can certainly hurt.
    So I don't have an easy answer to that question. I 
certainly will give it some additional thought, but it is a 
very difficult situation.
    Mr. Byrne. Thank you. Me either.
    Thank you, sir. I yield back.
    The Chairman. The gentleman yields back.
    I want to thank each of the witnesses for being here today. 
You have given us some very valuable testimony to consider as 
we go forward.
    And I particularly want to also thank Mrs. Comstock for her 
work on this. She has been invaluable to this committee and 
will be as we go forward.
    Also, again, I want to thank Representatives Speier and 
Byrne for your previous testimony here on November 14 and your 
participation, along with Mrs. Brooks today, as ex-officio 
members. I appreciate that insight that you have given.
    We have a great responsibility as we go forward to get this 
right and to make sure that we continue with the message that 
one case of sexual harassment is one too many. How do we make 
sure that the victim--as Ms. Speier has so eloquently stated, 
how do we make sure that the victim is protected, with changes 
that we will consider, when we balance transparency issues with 
making sure that a victim is not a victim a second time because 
of any changes that we make. And we want to make sure, with 
your input, that we make this in the correct way.
    It doesn't seem that difficult for Members to remember the 
golden rule and to treat people with respect. And that will 
solve a lot of our future problems as we try to clean this up.
    I want to remind everyone that members will have 5 
legislative days to submit to the Chair additional questions in 
writing that would be passed on to the witnesses.
    If we do that, we would encourage you to answer those as 
quickly as possible so that those can be made a part of the 
record.
    Without objection, this hearing is adjourned.
    [Whereupon, at 12:00 p.m., the committee was adjourned.]

                         
                         
                     
</pre></body></html>
